CERTIFICATE OF COMPLIANCE

No.MARON PICTURES LTD.,
Petitioner,
VS.

SAM EIGEN et aI.,
Respondents,

I

hereby certifi, as required by Supreme Court Rule
33.1(h) that the Petition for Writ of Certiorari
contains 8,865 words including footnotes, as counted
by the word-processing program used to generate the
text. This count excludes the questions presented,
Iist of parties, company disclosure statement, table of
contents, table of authorities and verbatim
quotations required under Rule 14.1 (f) which are
exempted by Supreme Court Rule 33.1(d).

I

declare under penalty of perjury that the foregoing
is true and correct.
Executed on July 5,2019.

